No.

9 O'G - O'^ QrJ /
' ,

G

w 1GEGAJ
v_^

Supreme Court, U.S.
FILED

SEP 2 8 2320
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

LAMAR A. WILLIAMS - PETITIONER
vs.
united states of amerikkka et al. - respondents

ON PETITION FOR A WRIT OF CERTIORARI TO

united states court of appeals for the fourth circuit
Decision dated April 29, 2020 in Case No. 19-4013
PETITION FOR WRIT OF CERTIORARI
Lamar A. Williams
P.O. Box 115
Perry Hall, MD 21128
443-846-3049

i

!

1

Qu-ed'i'o^'S
Whether or not the criminal charges were retaliatory in response to my May
8, 2018 complaint, the follow up complaint on May 24, 2018 and a 200-page
supplement to the May 8, 2018 complaint on June 27, 2018.

LIST OF PARTIES
All parties appear in the caption of the case on the cover page

RELATED CASES
Civil Cases in the united states district court of Maryland:
jkb-17-00066, ELH-18-03623 & ELH-03545
Criminal Cases in the united states district court of Maryland:
jmc/sag-18-01892 & tdc-18-00413
Related Appeals in the united states court of appeals for the fourth circuit:
18-1651, 18-1652, 18-1691, 18-1866, 19-4013, 19-1385, 19-6517 & 19-1916

2

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

.«

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A

APPENDIX B

APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

April 3.9, 90d$ dkerti'ort

6
fp.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
Of] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[•/ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
I 39^ y al0o10
A
\J\ -N© petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date)in
(date) on
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

Constitutional Statutes Violated:
1st Amendment Right to Freedom of Speech, 2nd Amendment Right to Bear Arms,
4th Amendment Right from Illegal Search & Seizure without just cause to prove
Contempt of Court charge, 6th Amendment Right to a speedy trial before an
impartial jury, 7 Amendment Right to a Jury Trial in cases that exceed twenty
dollars, 8

Amendment Right to not be subject to excessive bail or release

conditions, 9th Amendment Right to all Rights outside of the Constitution, 13th
Amendment Right to not be subjected to involuntary servitude, 14th Amendment
Right for blacks not to be deprived of their Constitutional Rights and the 15th
Amendment Right to Vote.

3

STATEMENTS OF THE CASE
On May 8, 2018, the judicial council for the fourth circuit received a
complaint from myself regarding jim bredar’s having treated me in a hostile &
egregious manner on February 18, 2018, making inappropriate partisan statements
in support of opposing party’s counsel and retaliating against me for participation
in my complaint against jim bredar.
It was my genuine belief, per my continuous conversations with Stephanie
vasser, that jim bredar would be ORDERED to recuse himself or at best reassign
my Civil Complaint to another judge. Instead, jim bredar retaliated and dismissed
my Civil Complaint on May 21, 2018. I then sent another letter to the judicial
council for the fourth circuit on May 24, 2018 demanding that jim bredar be
suspended without pay until my complaint had been fully investigated.
On the afternoon of June 27, 2018,1 submitted a 200-page supplement to my
May 8, 2018 & May 24, 2018 complaints, detailing the racist and discriminatory
behavior of jim bredar. Instead of intervening, the judicial council for the fourth
circuit dismissed my complaint on the morning of July 3, 2018. The u.s. attorney’s
office then filed a criminal complaint against me on the afternoon of July 3, 2018.
On the morning of July 5, 2018, 3-5 baltimore county police officers pointed
their guns at me, handcuffed me, searched my vehicle, and forcibly sat me on the
curb while handcuffed. Then the u.s. marshals shackled my wrists and ankles, put

4

me in a jail cell on Kelso Drive, demanded that I remove my belt and shoestrings
and would not allow me to call my attorney.
On July 6, 2018 I was threatened with life in prison for contempt of court for
what they declared is a Class ‘A’ felony. On July 31, 2018 I had to wear an ankle
monitor. On August 1, 2018 I was forced to admit myself to a mental hospital. On
August 8, 2018 I was released with no concerns or caution. On August 9, 2018 I
was put back in jail and threatened to be committed to Butner Hospital for a 4month evaluation. A week later on August 16, 2018 the united states of amerikkka
demanded that I accept a plea bargain for a Class ‘A’ felony. On August 23, 2018
I was told that the charge was being reduced to a Class ‘B’ misdemeanor and I
would therefore not be obtaining a jury trial.
On August 28, 2018 I was released, but still had to wear an ankle monitor
until I received a trial, lynching if you will, on the morning of October 9, 2018. I
was so stressed that I had to check myself into a hospital because I could not
understand how I was on trial for a felony, after having filed a complaint against
jim bredar. The case was postponed until December 5, 2018 and I then was
ORDERED to reside with drug addicts, alcoholics, and chronic smokers until my
trial. I was convicted of a Class ‘A’ felony on December 5, 2018 and now have
those heinous charges on what was an unblemished criminal record.

5

REASONS FOR GRANTING THE PETITION
I believe that my petition should be GRANTED because there was no reason
for the lower courts to subject me to all that despair in response to my complaint
against jim bredar.

CONCLUSION
The petition for a writ of certiorari should be granted or at best the
affirmation of the lower appellate court be reversed and these charges be expunged
from my record.
s

kfed,

amar A. WiMiams
September 28, 2020

v—n
Date:

REQUEST FOR HEARING
I, the Petitioner, Lamar A. Williams, pro se, advocating on behalf of myself,
hereby requests a hearing with respect to such portions of my claim as to which
each is entitled a hearing.

Lamar A. Williams, Petitioner, pro se

No.

6

